                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-18                                    Office of Inspections                                  February 2013




                   Inspection of
        the Bureau of Diplomatic Security,
 Office of Investigations and Counterintelligence,
        Divisions of Special Investigations,
            Criminal Investigations, and
      Computer Investigations and Forensics




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                    1
Context                                                                          2
Need for Independence                                                            4
Professional Standards and Quality Assurance                                     6
Human Resources                                                                 11
Other Management Issues                                                         14
  Special Investigations Division                                               14
  Criminal Investigations Division                                              15
  Computer Investigations and Forensics Division                                21
  Information Technology Systems                                                22
List of Recommendations                                                         24
List of Informal Recommendations                                                28
Principal Officials                                                             29
Abbreviations                                                                   30
Appendix: Reporting Chain of Command for the Bureau of Diplomatic Security,
             Directorate of Domestic Operations, Office of Investigations and
             Counterintelligence                                                31




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Bureau of Diplomatic Security (DS) Special Investigations Division (SID), which
       investigates allegations of criminal and administrative misconduct, lacks a firewall to
       preclude the DS and Department of State (Department) hierarchies from exercising undue
       influence in particular cases.

   •   DS does not have a comprehensive, up-to-date manual with approved policies and
       guidelines on how to conduct investigations.

   •   DS’s quality assurance measures are not sufficient to ensure that investigations comport
       with law enforcement standards and powers. DS should use peer reviews to help correct
       flaws and identify best practices.

   •   Frequent agent turnover in DS investigative offices reduces long-term, specialized
       expertise and hampers complex criminal investigations.

   •   The Criminal Fraud Investigations (CFI) branch of the Criminal Investigations (CR)
       Division should become a new division.

   •   DS and the Bureau of Consular Affairs (CA) have not completed a long-pending
       memorandum of understanding regarding CA’s Consular Integrity Division (CID).

   •   Inspectors found personnel in the three Office of Investigations and Counterintelligence
       (ICI) divisions to be professional and dedicated to their jobs.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the OIG team did not identify problems that need to be corrected.

        The inspection took place in Washington, DC, between October 1 and November 16,
2012. (b)(2)(b)(6)
                                                                        conducted the
inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
       This inspection addresses three divisions within the Bureau of Diplomatic Security (DS),
Directorate of Domestic Operations, Office of Investigations and Counterintelligence (ICI): the
Special Investigations Division (SID), the Criminal Investigations (CR) Division, and the
Computer Investigations and Forensics (CIF) Division. ICI has two other divisions:
Counterintelligence, inspected in 2011, and Field Offices, which has the single largest number of
ICI personnel.

        SID’s mission is “to conduct administrative and criminal investigations related to alleged
misconduct and security clearance eligibility and investigations of unauthorized disclosure and
compromise of classified and sensitive information involving Department employees,
contractors, locally employed staff, and all U.S. Government personnel under chief of mission
authority.” The range of SID investigations is diverse, from substance abuse to domestic
violence, deaths, discharge of a firearm, sex crimes, and other conduct that may merit criminal or
administrative discipline. SID, which opened 350 cases in 2012, has 29 employees and a
program budget of $479,000, which includes two personal services contract positions but no
other salaries.

        CR is a large division with five branches and a mandate that relates to crimes involving
consular activities. CR opened 695 cases in 2012. The Criminal Fraud Investigations (CFI)
branch investigates allegations of malfeasance involving visa and passport fraud, complex visa
and passport crimes spanning multiple jurisdictions, and human trafficking. The Criminal
Investigative Liaison (CIL) branch coordinates investigative requests from Federal, state, local,
and foreign law enforcement agencies and facilitates fugitive returns. CIL has liaison officers in
several agencies plus the International Criminal Police Organization. The Overseas Criminal
Investigations (OCI) branch supports the assistant regional security officer-investigator program.
The Special Projects (SP) branch specifically targets fraud related to temporary worker and
trainee visas and intracompany transferee visas (H&L), working with the Department of
Homeland Security/Immigration and Customs Enforcement Document and Benefits Task Forces
and the Kentucky Consular Center. The Criminal Intelligence and Research (CIR) branch
conducts consular fraud-related research and analysis, including financial forensic efforts
directed at asset forfeiture and seizure; manages the DS evidence program; and oversees all DS
database-access programs. Significant CR funding comes from machine readable visa fees and
H&L employment visa funding. CR has 277 personnel and a program budget of $22,942,303.

        CIF, established in 2004, provides DS and others in the Department with technical
assistance for computer-evidence recovery and analysis and for Internet and network
investigations. Within CIF, the Computer Investigations Program supports cyber crime
investigations, carries out related security functions, and provides support for evidence collection
from electronic devices. The Digital Forensics Program provides laboratory support related to
digital evidence. The Technical Surveillance Program provides equipment, operational support,
and training to DS investigators and staff. CIF has 57 authorized employees, with current staffing
of 26 third-party contractors, 25 direct hires, and 1 personal services contractor. The CIF budget
is $8,678,940, with about three-quarters for contract staffing and one-quarter for program funds.



                                        2
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        A December 23, 2010, memorandum of understanding between the DS Diplomatic
Security Service and the OIG Office of Investigations delineates responsibilities for Department
investigations, including areas of potential overlap.

       Nearly 88 percent of employees in the three divisions completed OIG personal
questionnaires, a remarkably high total. Most personnel were complimentary of their supervisors
and expressed satisfaction in their involvement in important work. The inspection team was
impressed by the candor, devotion to duty, and professionalism of staff in each division. When
staff members voiced criticism, they did so in the context of improving the system and enabling
dedicated employees to do their jobs more effectively.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Need for Independence
        A number of investigative standards are generally accepted to be requirements for any
Federal investigative entity. The Council of the Inspectors General on Integrity and Efficiency
has laid out broad categories of such standards, which are equally relevant to offices of
inspectors general and to DS ICI divisions. One such essential investigative standard is
independence, both in fact and appearance, from undue influence by higher authorities
concerning the opening and conduct of cases. SID does not have that independence.

         In all matters relating to investigative work, the investigative organization needs to be
free, in fact and appearance, from impairments to independence in both organization and attitude.
Such independence is essential so that an organization’s decisions about obtaining evidence,
conducting interviews, and making recommendations will be impartial and viewed as such by
knowledgeable third parties. The credibility of the Department’s investigative organizations and
disciplinary system depends on that independence, yet the perception exists among
knowledgeable parties that external influences have negatively affected some SID investigations.

        SID is one of many offices that report up the normal chain to the principal deputy
assistant secretary and director of the Diplomatic Security Service. Foreign Service special
agents in SID, 80 percent of whom are junior in rank, ordinarily serve only one tour as an
investigator. Subjects of their investigations may include more senior DS agents; other senior DS
agents are sometimes hostile witnesses for interviews. The SID supervisors also are in the DS
mainstream and subject to regular “up or out” assignment and promotion processes. During
inspection interviews, nearly every SID special agent acknowledged being aware that one or
more suspects, witnesses, or senior Department officials could one day serve on a promotion
board or on a DS assignment panel that would decide the investigator’s career prospects.
Although most investigators said that they had not experienced career pressure in any particular
cases, some had indeed felt such pressure. Several special agents in SID observed that Civil
Service agents with sufficient rank are less susceptible to such pressure, as their careers do not
depend on DS assignment panels or Foreign Service promotion boards.

        Inspectors observed that the Central Intelligence Agency, Department of Justice, and U.S.
Secret Service internal affairs investigative offices all have protections in place to insulate
sensitive internal investigations from even the perception of interference. The current SID
structure does not foster independence from career pressures and creates significant potential for
undue influence, favoritism, and potential retribution. Various corrective mechanisms may be
possible. U.S. Government investigative experts from outside the Department could offer helpful
structural benchmarks.

Recommendation 1: The Office of the Deputy Secretary should restructure the investigative
responsibilities currently assigned to the Special Investigations Division. The outcome should
include safeguards to prevent any Department of State or Diplomatic Security official from
improperly influencing the commencement, course, or outcome of any investigation. (Action:
S/ES)
       (b) (5)



                                        4
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

(b) (5)




Recommendation 2: (b) (5)



       The SID chief is an FS-01 position, which, as a number of observers commented, leaves
any chief who aspires to the Senior Foreign Service vulnerable to pressure from above. Sources
also suggested that having three bureaucratic layers between the SID chief and the DS Assistant
Secretary makes sensitive cases vulnerable to multiple types of interference and the leaking of
information. Making the SID chief a Senior Executive Service officer and streamlining the chain
of authority would mitigate these risks.

Recommendation 3: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should convert the Special Investigations Division chief position to Senior
Executive Service and have that position report directly to the Bureau of Diplomatic Security
Assistant Secretary. (Action: DS, in coordination with DGHR)




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Professional Standards and Quality Assurance
        Aside from independence, several other Council of the Inspectors General on Integrity
and Efficiency’s investigative standards relating to professional performance and quality
assurance measures reflect general principles that are essential to the success of any Federal
investigative entity. Among the broad categories are the following:

   •   Exercising professional care, which ensures impartiality, integrity, timeliness, appropriate
       techniques, adherence to legal requirements, thoroughness, accurate and complete
       documentation, and documented policies and procedures;

   •   Planning, which includes both case and organizational levels;

   •   Executing investigations, which encompasses interviewing, collecting evidence,
       documenting work, adhering to legal requirements, and conducting supervisory progress
       reviews;

   •   Reporting; and

   •   Managing investigative information, which includes information flow, complaint
       handling, and investigative database management.

         DS lacks such clearly stated professional investigative standards for investigative
functions, with the result that DS agents who circulate through the ICI divisions make decisions
about procedures and cases in ad hoc and sometimes inconsistent ways. Without such standards,
it is difficult to ascertain whether adequate internal safeguards and standard management
procedures exist. Peer reviews of investigative divisions can help correct flaws and incorporate
best practices.

Diplomatic Security Investigators’ Manual

        An up-to-date and comprehensive manual of procedures for conducting investigations is
an essential requirement for any Federal investigative entity. Current provisions in the classified
Foreign Affairs Manual address only some elements of investigations and some are outdated. DS
has completed Foreign Affairs Manual revisions for a few issues and is drafting others, but the
current guidelines do not constitute an up-to-date and comprehensive manual. Agent training
provides an overview of investigative skills but is no substitute for an inclusive resource.

        The absence of a comprehensive, up-to-date manual increases the potential for errors,
particularly for new agents who are forced to rely on on-the-job training. Inspectors discovered
uncertainty among SID agents about which warnings to provide subjects prior to their interviews
in investigations, though the wrong choice of warning can ruin a potential criminal prosecution.
Inspectors were told that SID supervisors have sometimes pursued investigations excessively
against other DS agents and that some supervisors have chosen to open cases on every allegation,
including for those types of workplace issues that Department managers should ordinarily
attempt to handle via other means. The likelihood of such problems increases when clear
guidelines are lacking and individual preferences prevail. SID leadership appears to have
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

recognized the need for structure and is, on an ad hoc basis, compiling relevant documents on an
intranet site.

       CR created a handbook on passport and visa investigations for use in the Basic Special
Agent Course, but that handbook is 8 years out of date and is not readily accessible to DS agents.
Furthermore, no standard operating procedures exist for the Consular Integrity Division (CID), a
joint CR/CA entity. Lack of standard procedures contributes to disagreement about roles and
responsibilities, including those relating to the Procedural Integrity Testing and Training
Program, which CA established to help detect and prevent passport fraud and to improve the
passport issuance process.

        In investigative entities like SID and elements of CR where agents with limited
investigative experience fill most positions, comprehensive, up-to-date written guidelines are
essential. DS could draw on the manuals of other Federal law enforcement entities, including
OIG’s Office of Investigations, to improve its own manual.

Recommendation 4: The Bureau of Diplomatic Security should revise its outdated manual of
standard investigative policies and procedures to make it a comprehensive, up-to-date document
with annexes applicable to particular offices, including the Special Investigations Division and
the Criminal Investigations Division’s Criminal Fraud Investigations branch. (Action: DS)

Special Investigations Division Workmanship

        For several years, SID has worked closely with the Bureau of Human Resources, Office
of Conduct, Suitability, and Discipline to reduce the adjudication time required for
administrative disciplinary actions. In the past, the Office of Conduct, Suitability, and Discipline
frequently requested additional information from SID, claiming that some reports of
investigation (ROI) did not contain sufficient information. SID management has attempted to
regularize the ROI process, including by establishing regular dialogue with the Office of
Conduct, Suitability, and Discipline and the Bureau of Human Resources Grievance Office and
by establishing informal guidelines for ROI production, which now include discussion of the
Douglas factors 1 used in administrative discipline decisions, judgments about whether the
investigator has found sufficient evidence to “substantiate” or “not substantiate” allegations of
facts, and discussion of “venue” elements. Despite such SID efforts, complaints from ROI users
continue, with estimates of problem ROIs varying from “just a few” to “25 percent.”

        SID has historically not had a clear policy that supervisors must conduct case reviews
with their subordinates on a regular basis. Although SID has recently initiated regular reviews,
its implementation of the policy is ad hoc. Furthermore, feedback on ROI preparation often only
took place after completion of the case file and was sometimes cursory or targeted at spelling and
grammar, not substance. Without regular and institutionalized case reviews, supervisors cannot
assess the professional development and competence of their subordinates nor provide timely
input and guidance on the conduct of cases.



1
 Douglas factors are 12 elements that Federal adjudicators consider in gauging the severity of administrative
disciplinary actions to prescribe against Federal employees.
                                             7
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of Diplomatic Security should include in the work
requirements statements of all Special Investigations Division supervisors a requirement to
conduct regular reviews of cases, including report of investigation preparation, with each
investigator. (Action: DS)

Memorandum of Understanding with Consular Affairs

        With its variety of consular-related functions, CR interacts closely with CA. Two CR
agents and one analyst report directly to the CR Division chief and work in CID within the
Office of Fraud Prevention Programs in CA. As CA’s designated clearinghouse for all
allegations of consular-related malfeasance, CID analyzes use of consular systems and identifies
anomalies. CID also monitors U.S. Government access to passport records. The DS agent in
charge acts as a liaison with CA on a number of issues, including DS access to consular
databases, and also works closely with other CR elements. In the past, disagreements occurred
over the division of labor in CID between the DS and CA elements. DS and CA have not signed
a memorandum of understanding that would establish necessary guidelines for the investigative
unit of CID, including DS access to CA systems and databases.

Recommendation 6: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should complete and sign a memorandum of understanding for the Consular
Integrity Division. (Action: DS, in coordination with CA)

Assistant Regional Security Officer-Investigator Issues

        The OCI branch of CR supports assistant regional security officer-investigators who
conduct investigations of visa fraud in embassies abroad. DS performance reviews and previous
OIG reports indicate that assistant regional security officer-investigator performance has been
uneven. Some agents are extremely successful and others less so. Contributing factors include
the level of cooperation of the consular section, the relationship with the regional security
officer, the relationship with local law enforcement and the host government, and the experience
and skills of the incumbent as a criminal investigator. An updated memorandum of
understanding can resolve some of the problems regarding coordination of consular section and
regional security officer approaches to the investigator program; however, a clear set of
operational guidelines governing case referrals and other procedures is also important. DS and
CA recommend that each post establish standard operating procedures, but many posts have not
done so. Although DS has made model standard operating procedures available, these guidelines
do not adequately address core issues, such as a case referral policy, and were not created in
coordination with CA.

Recommendation 7: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should establish model standard operating procedures for all posts with
assistant regional security officer-investigators. (Action: DS, in coordination with CA)

        DS wants to increase the number of assistant regional security officer-investigator
positions to 123, but DS and CA have not developed clear criteria for determining where to
establish the additional positions. The only definite requirement that DS offers is to have an
assistant regional security officer-investigator at every post where the Department of Homeland
Security has a visa security unit, although the nexus between the two is unclear. There are no
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

clear standards to judge the effectiveness of established assistant regional security officer-
investigator positions in meeting the goals of the investigator program, and to date the
Department has never abolished a position as ineffective. Some consular sections resist
establishing an investigator position, and others wish to have an existing position abolished. In a
survey of assistant regional security officer-investigators, a few stated that they do not have real
work to do and that the Department should abolish their positions. In the absence of metrics to
measure the value of existing positions and the success of the investigator program overall, the
Department cannot make informed decisions on the future of this program.

Recommendation 8: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should establish criteria for creating new assistant regional security officer-
investigator positions and for judging whether an existing position remains important to meet
program goals. (Action: DS, in coordination with CA)

Investigative Units at Embassies Baghdad and Kabul

        Embassies Baghdad and Kabul each have an investigative unit located within the regional
security office. Although the DS agents assigned to those units conduct a variety of
investigations, including specialized cases for which SID provides support, they report to the
regional security officer at post, not directly to SID. This arrangement leaves SID without
sufficient ability to oversee the proper handling of such cases. Possible solutions include
establishing SID positions in Baghdad and Kabul, having SID agents provide rotational
temporary duty support to posts, and transferring to SID oversight and operational control of all
investigative cases at Embassies Baghdad and Kabul.

Recommendation 9: The Bureau of Diplomatic Security should reassess the staffing and
reporting chain of the investigative units at Embassies Baghdad and Kabul and make the Special
Investigations Division responsible for overseeing all investigations that fall under the Special
Investigations Division mandate. (Action: DS)
(b) (5)              Administrative Subpoena

      Inspectors heard repeated complaints that two unresolved procedural issues, both beyond
DS control, hinder investigators’ ability to pursue cases effectively.

          In 1977, Secretary of State Vance issued a memorandum stating that (b)(5)(b)(7)(E)




                                          9
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

(b)(5)(b)(7)(E)



Recommendation 10: (b)(5)(b)(7)(E)




         Administrative subpoena authority allows a Federal law enforcement agency to issue a
compulsory request for documents or testimony without prior approval from a grand jury, court,
or other judicial entity. Congress has provided administrative subpoena authority to many
agencies with the mandate to conduct criminal investigations, but not to DS. According to agents
and senior managers, lack of administrative subpoena authority significantly hampers agents’
ability to conduct investigations.

Recommendation 11: The Bureau of Diplomatic Security, in coordination with the Office of
Legislative Affairs and the Office of the Legal Adviser, should seek congressional action that
provides the bureau with administrative subpoena authority. (Action: DS, in coordination with H
and L)

Peer Reviews

       Peer reviews can be a useful tool to determine whether adequate internal safeguards and
management procedures exist so that investigative entities follow law enforcement standards and
properly exercise law enforcement powers. Peer reviews are conducted by nonaffiliated U.S.
Government entities that perform similar work and offer a fresh perspective on what works and
what does not, based on generally accepted standards. DS has not invited such reviews, nor
included them in its action agenda, for its investigative divisions. A vigorous peer review process
could have helped identify and address the issues noted in this report.

Recommendation 12: The Bureau of Diplomatic Security should commence peer reviews and
conduct them on a regular schedule for the Special Investigations, Criminal Investigations, and
Computer Investigations and Forensics Divisions’ investigative policies, procedures, and
activities. (Action: DS)




                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Human Resources
         Having qualified investigators is another standard essential for any Federal investigative
entity, as reflected in Council of the Inspectors General on Integrity and Efficiency’s general
principles. Individuals assigned to conduct investigative activities must collectively possess, via
education, training, and professional development, the requisite knowledge, skills, and abilities
to perform tasks at their grade level. Also vital is a systematic, progressive, and documented plan
to maintain those fundamentals. Several aspects of the DS approach to investigative assignments
in ICI complicate day-to-day performance and discourage development of a professional
investigative corps. Basic DS assignment criteria, the lack of an investigator career path, the
current 2-year assignment length for DS agents, and the paucity of civil servant investigators all
contribute to the problem. These factors, discussed in turn below, are interconnected, and the
manner of the Department’s solution to the independence problem (see Recommendation 1) will
determine which ones are central to the challenges noted in SID.

Special Agent Investigator Requirements

         All three ICI divisions have a mixture of career Civil Service/General Schedule (GS) and
career Foreign Service (FS) positions. CR and CIF also hire civilian contractors. DS hires GS
investigators, designated as GS-1811s, based at least in part on past investigative credentials. The
FS agents whom DS assigns to investigative positions are DS agent generalists, designated FS-
2501s. The vast majority are junior in FS rank. In some cases, the FS-2501s have significant
investigative experience from pre-DS jobs. However, many lack such experience, though DS
provides all agents with basic training, including an introductory Federal Law Enforcement
Training Center investigative course, and most agents do some investigative work when serving
a first tour in a domestic DS field office. Some agents bid for SID, CR, and CIF jobs to develop
an investigative specialty or to gain knowledge that could prove useful in future assignments. In
some cases, DS force-assigns agents to ICI divisions. Assignment panels reportedly use only
general DS criteria in deciding which FS-2501s to assign to investigative positions, with timing
rather than any special skills or experience being key. Lack of experience necessitates lengthy
learning curves and can result, at least initially, in flawed ROIs, which can impede the
prosecution of criminal cases.

Recommendation 13: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should incorporate investigative skill requirements, technical aptitude, and
agents’ work histories into criteria for making FS-2501 agent assignments to the Office of
Investigations and Counterintelligence divisions’ investigative offices. (Action: DS, in
coordination with DGHR)

Investigator Career Path

        DS expects all FS agents to gain experience in three types of assignments in building a
career: protection details, security assignments at embassies, and investigative work. Most DS
agents believe the brightest career paths emphasize protection and security assignments. Those
who aspire to specialize in an investigator career path with systematic and progressive follow-on
training struggle to achieve that goal, and few succeed in making a career of DS investigative
assignments. In SID, CR, and CIF, new FS-2501 agents receive some formal training within their

                                       11
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

first 6 months on the job, including Federal Law Enforcement Training Center courses. Very few
agents follow a first investigator tour with more such assignments. Currently in SID and CR
investigative offices, none of the FS-2501 supervisors have experienced a continuous career
investigator development program, with the result that both supervisors and staff usually face
sharp learning curves on arrival.

Recommendation 14: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should establish an investigator specialized career path for FS-2501 agents
(or a separate numerical designator for investigators) at least up to the rank of FS-01,
incorporating systematic and progressive training and assignments. (Action: DS, in coordination
with DGHR)

Assignment Length for Agent Investigators

        All FS-2501 agents in the three ICI divisions receive 2-year assignments, with the
possibility to extend for a third year. This time period is too short, given the importance of their
investigations, which can dramatically affect a suspect’s career and can result in severe criminal
or administrative penalties. ICI supervisors can count on only 12 to 15 productive months from
newly arrived FS-2501s. Initially, agents require a month or more in classroom and on-the-job
training. This training requirement applies equally to SID criminal investigators, CR
investigators of passport and visa fraud, and CIF agents entering the world of computer
forensics. Apart from training, DS routinely calls on FS-2501 agents in ICI for temporary duty in
diplomatic protection work, often during the United Nations General Assembly period but at
other times as well. Finally, when an FS-2501 agent receives an onward assignment, language
training and other preparation for that assignment can consume up to 6 months of the agent’s 2-
year tour. These realities keep DS from reaping the full benefit from training and experience.
The problem is particularly acute when an investigation involves a vulnerable victim or is
moving toward a Federal prosecutor who values continuity and an agent’s tour ends. The
solution in the three ICI divisions has been to encourage FS-2501 agents to extend for a third
year. Many in SID and CR’s CFI branch did so in 2012; others did not. DS has created some 3-
year domestic tours for positions requiring specialized skills and unusual continuity, as allowed
under Standard Operating Procedure A-03, but has resisted doing so in ICI.

Recommendation 15: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should change the normal assignment length for FS-2501 special agents in
the Special Investigations, Criminal Investigations, and Computer Investigations and Forensics
Divisions to 3 years, recognizing specialized skills and unusual continuity requirements as
justification. (Action: DS, in coordination with DGHR)

Adding More General Schedule Investigators to the Mix

        Yet another approach to meeting continuity and expertise standards entails increasing the
percentage of GS-1811s, both as supervisors and investigators. Depending on the restructuring
discussed above for SID, that division might be majority, or even 100 percent, GS-1811s. At
present, SID and CR investigative staffs are heavily weighted toward FS-2501s, with a small
minority of GS-1811 Civil Service investigators. Out of SID’s 24 currently filled investigator
positions, 21 are FS-2501s. Only one supervisor and two staff investigators are GS-1811s. For
CFI, the numbers are 21 FS-2501s and 2 GS-1811s. A benefit of GS-1811 investigators is that
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

they can stay indefinitely to provide long-term continuity and expertise. On the positive side for
FS-2501s, many in SID, CR, and CIF report that assigning FS agents to ICI investigative
positions and then circulating those agents to the field, including to assistant regional security
officer positions in embassies, improves the ability of field agents to serve as first responders
when investigations arise. On balance, the frequent turnover of FS-2501s in SID and CR
investigative units is not sufficiently buffered by the number of GS-1811s in place. Extending
FS-2501 tours to 3 years would help with continuity; however, increasing the percentage of GS-
1811s would better guarantee long-term stability for sensitive cases and specialized expertise
during the inevitable FS-2501 transitions. Some in ICI leadership have urged a dramatic increase
in the number of investigator positions, particularly in SID. However, interviews at lower levels
in ICI suggest that, although case distribution is sometimes uneven, total caseloads are
manageable with the current staffing levels. DS could achieve a better balance by countering any
increase in the number of GS-1811 investigators in ICI with a reduction in the number of FS-
2501 investigators, bringing the net position cost of that adjustment to near zero.

Recommendation 16: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should increase the percentage of GS-1811 investigators in the Special
Investigations Division and the Criminal Investigations Division to include at least two GS-
1811s in each investigative work unit and at least one GS-1811 supervisor in each division.
(Action: DS, in coordination with DGHR)

        The CFI branch in CR has three units, each led by a supervisor. Only 3 of the 20 CFI
investigator positions and none of the 3 unit chief positions are designated as GS-1811s. Agents
complain about the lack of continuity due to FS officer turnover and note the problems that this
causes when working with assistant U.S. attorneys in prosecuting cases. The agents believe that
having an experienced GS-1811 unit chief would provide needed stability and help them perform
more effectively.

Recommendation 17: The Bureau of Diplomatic Security should designate at least one unit
chief position in the Criminal Fraud Investigations branch as Civil Service. (Action: DS)




                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Other Management Issues
Special Investigations Division

Violent Crimes and General Investigations Units

        When the inspection began, SID had one Violent Crimes unit and two General
Investigations units. Although all SID agents received the same basic investigative training,
those in the Violent Crimes unit received additional, specialized training for conducting forensic
interviews (child abuse/homicide) and death investigations. Those same agents then received
workloads reflecting this specialized training. Agents in the General Investigations units did not
receive such opportunities and would not be prepared to address the range of investigative issues
they would later encounter in assignments to embassies abroad. As a result, General
Investigations unit agents felt disadvantaged and suffered from poor morale. There was also
evidence of uneven distribution of cases among the three SID units, resulting in overutilization
of some agents and underutilization of others. SID has since appropriately abolished the
distinction between the Violent Crimes and General Investigations units. Providing training to all
agents in the full range of SID specialties remains important.

Recommendation 18: The Bureau of Diplomatic Security should develop a training plan that
provides all agents in the Special Investigations Division with training and experience in the
various types of investigative skills. (Action: DS)

Relationship Between the Special Investigations Division and U.S. Attorneys

       SID has useful relationships with some offices in the Department of Justice, but agents
reported that routine liaison relationships are not strong with assistant U.S. attorneys, which has
hampered criminal prosecution efforts. Strengthening such relationships might increase U.S.
attorney acceptance of SID cases for criminal prosecution.

       Informal Recommendation 1: The Bureau of Diplomatic Security should increase
       liaison efforts between Special Investigations Division supervisors and all U.S. attorney
       offices in the Washington, DC, region.

Relationship Between the Special Investigations Division and the Bureau of Human
Resources, Office of Conduct, Suitability, and Discipline

        Some personnel in the Bureau of Human Resources, Office of Conduct, Suitability, and
Discipline proposed addressing the concerns discussed above about the quality of SID’s ROIs
via upfront training, requiring each new SID agent to attend a day or two of orientation in the
Office of Conduct, Suitability, and Discipline at the beginning of an investigative assignment. In
turn, SID agents raised frustrations about Office of Conduct, Suitability, and Discipline
procedures and recommendations. Past quarterly meetings between the two entities have fallen
by the wayside, perhaps because particular issues that require immediate attention do not appear
on a quarterly schedule. Although ad hoc conversations can help address existing problems with
ROIs, they are less effective at preventing problems from occurring in the first place. A better


                                        14
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

understanding of each other’s mission would alleviate frustration and facilitate better
cooperation.

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should implement an orientation program that requires each new investigator
in the Special Investigations Division to attend at least one full day of consultations with
adjudicators in the Office of Conduct, Suitability, and Discipline and that includes reciprocal
orientation days for adjudicators with agents in the Special Investigations Division. (Action: DS,
in coordination with DGHR)

Poor Administrative Support

        SID has four support staff members: one investigative assistant and three investigative
analysts. Nevertheless, supervisors have assigned routine administrative duties, such as oversight
of vehicle usage and management of information systems, to agents, thereby distracting them
from investigative work. Previous staffing shortages among the analysts and modifications of the
investigative assistant’s duties have caused confusion about work responsibilities. SID also has
not delineated administrative and investigative support functions in position description updates.
Accurate position descriptions are essential to employee performance, accountability, and moralH
and to the equitable distribution of work.

Recommendation 20: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should rewrite the position descriptions of the support staff in the Special
Investigations Division to include the variety of routine office management responsibilities and
stop assigning noninvestigative duties to agents. (Action: DS, in coordination with DGHR)

Vehicle Policy

        Inspectors received reports that some SID employees had abused the DS home-to-work
policy by routinely using official vehicles for home-to-office transport. Inspectors made
inquiries, and SID issued a new standard operating procedure on October 10, 2012, that provides
clear guidance on proper home-to-work vehicle usage.

Criminal Investigations Division

        As noted previously, CR’s five branches all relate to crimes involving consular activities.
CFI investigates allegations of consular malfeasance and human trafficking; CIL coordinates
investigative requests; OCI supports the assistant regional security officer-investigator program;
CIR conducts consular fraud-related research and analysis, manages the DS evidence program,
and oversees all DS database access programs; and SP targets H&L employment visa fraud.

        With its focus on criminal activity involving the Department’s consular functions, CR
works closely with CA, the Department of Homeland Security, the Department of Justice, and
other agencies. CR funding is sufficient and comes primarily from machine readable visa
revenues and fees derived from H&L employment visas. Such funds reportedly are available to
add visa-related positions if necessary.


                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        CR has expanded rapidly. Last year one branch, OCI, grew from one employee and two
contractors to eight employees. Another branch, CFI, is bigger than some divisions. DS has
located some functions in CR to serve the entire bureau, including the property and evidence
program and responsibility for the informant and monitoring programs. The size and diversity of
the division make it difficult to manage and restrict the rank of subunit managers.

Telework

      CR management has not clarified a telework policy for the division, although some
employees telework occasionally. Employees have expressed the desire to telework, and the
Department encourages this policy when feasible.

          Informal Recommendation 2: The Bureau of Diplomatic Security should formulate and
          disseminate a policy on teleworking for the Criminal Investigations Division.

Criminal Fraud Investigations Branch

        CFI investigates cases of criminal fraud involving U.S. passports and visas, specifically
those including allegations of employee malfeasance in consular operations that would otherwise
go to SID. The visa and passport cases are typically complex fraud schemes involving both
overseas and domestic criminal activities that cross jurisdictional lines. The branch also
investigates cases of human trafficking, particularly those involving diplomatic A and G visa
domestic servants.

        The CFI branch now includes 29 positions and is bigger than several divisions in DS. The
branch chief and unit chiefs are all FS-02 officers. CFI’s roles are expanding to include
investigations of employee malfeasance and an array of other consular frauds. CFI must work
with the Office of Protocol, the Department of Homeland Security, and other law enforcement
agencies around the country. Making CFI a separate division within ICI, with a concomitantly
more senior chief, would help keep pace with these developments.

Recommendation 21: The Bureau of Diplomatic Security should split the Criminal Fraud
Investigations branch responsibilities from the Criminal Investigations Division to create a new
division. (Action: DS)

          CFI shares the 12th floor of Department annex SA-20 with the other CID branches. (b) (
(b) (5)                                                                                       (5) b
                                                                                                   )
                                                                        CFI has active cases       (
involving DS personnel, and on at least one occasion, DS assigned an employee under                5
investigation to a job in another unit on the 12th floor. The current configuration jeopardizes the)
confidentiality of sensitive case materials and the conduct of investigations.

Recommendation 22: The Bureau of Diplomatic Security should restrict access to the Criminal
Fraud Investigations branch workspace by reconfiguring the SA-20 12th floor space or relocating
the branch. (Action: DS)

         The operations assistant in CFI is responsible for coordinating and obtaining clearances
for all undercover, surveillance, and monitoring operations for DS headquarters and field offices.
                                         16
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

This is an essential function for all DS investigations. In the operations assistant’s absence, an
agent fills the position, but there is no formal designation or training for a backup.

       Informal Recommendation 3: The Bureau of Diplomatic Security should designate and
       train an employee to serve as regular backup for the operations assistant position in the
       Criminal Fraud Investigations branch.

Overseas Criminal Investigations Branch

         DS established what became the assistant regional security officer-investigator program
in 1996 to assign special agent investigators in consular sections with a mandate to fight
international terrorism, augment consular efforts to combat visa and passport fraud, and assist
international and domestic prosecutions. DS created OCI at headquarters to support the assistant
regional security officer-investigator program, which has expanded rapidly from fewer than 20
positions to more than 100 in 2012 and a projected 123 by 2014. Assistant regional security
officer-investigator positions are intended to be largely independent from regional security
offices at posts, and agents are to spend 80 percent of their time on consular fraud-related
activities. The regional security officer and consular chief at post supervise the agents jointly.
The program is generally judged a success, though it has experienced growing pains.

        In 2012, OCI expanded from one agent and two contractors to five agents and three Civil
Service support personnel in response to the program’s growth. Four desk officers now divide
the world regionally to provide logistical and investigative support. The branch also periodically
conducts a program review of each assistant regional security officer-investigator position. Two
administrative assistants and one investigative analyst provide additional support, and the branch
is hiring a new program analyst.

        Rapid program expansion and lack of emphasis on overseas experience have resulted in
problems. All but one of the four agents assigned as desk officers lack overseas experience,
placing them at a disadvantage when conducting program reviews that require interaction with
senior embassy officials. They are also ill prepared to advise assistant regional security officer-
investigators, who are often junior in rank and on their first overseas assignment.

Recommendation 23: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should assign only agents with overseas experience to be desk officers in the
Overseas Criminal Investigations branch. (Action: DS, in coordination with DGHR)

        The branch chief manages the overseas program, including the establishment of new
assistant regional security officer-investigator positions, while also supervising the new branch
without a single experienced employee. He has devoted much of his time to the overseas
program and has traveled with each desk officer on at least an initial site visit. The chief has not
devoted equivalent attention to management of OCI itself. The descriptions for desk officer
positions in OCI are too general, and employees expressed frustration at not having clearly
defined roles. The distribution of work is uneven and, at times, inequitable.

Recommendation 24: The Bureau of Diplomatic Security should establish an accurate position
description and work requirements for each position in the Overseas Criminal Investigations
branch. (Action: DS)
                                        17
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        A key OCI function is performing program reviews of each assistant regional security
officer-investigator position. DS provides a report of this review to post management and CA as
well. The stated goal is to review each assistant regional security officer-investigator
approximately midway through the assignment. The reviews are useful, though their frequency
may need revisiting as the program matures. OCI is already too small to meet the current,
ambitious program review goal. Each of the four desk officers, even if traveling alone instead of
the current practice of traveling in pairs, would have to make 12 visits each year to achieve the
goal. If the number of positions increases by more than 20 percent, the burden will only increase.

Recommendation 25: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should request an additional desk officer position for the Overseas Criminal
Investigations branch. (Action: DS, in coordination with DGHR)

        Foreign Service national investigators working for assistant regional security officer-
investigators do not have the same Consular Consolidated Database access as Foreign Service
national investigators who work for fraud prevention managers in the consular section. Both
positions perform essentially the same functions and need the same access, without which their
effectiveness is severely limited.

Recommendation 26: The Bureau of Consular Affairs should grant Foreign Service national
investigators working for assistant regional security officer-investigators the same Consular
Consolidated Database access it grants to consular Foreign Service national investigators.
(Action: CA)

Criminal Intelligence and Research Branch

        CIR is a collection of very different units, all of which support the work of the other
branches of CR and of DS in general. CIR provides direct case support through the Visa and
Passport Analysis unit and the Financial Analysis and Forfeiture unit. The management and
program analyst oversees the property and evidence management program for all of DS. The
database manager controls database access, logons, and permissions to many government and
private databases for all DS employees. CIR also deploys analysts to other government agencies
and to CA to provide access to Department databases and help conduct investigations.

        The Financial Analysis and Forfeiture unit contracts for forensic accountants in field
offices and at headquarters to provide financial research and analysis to identify monies that the
government can seize if the origin is visa or passport fraud. Turnover among contractors can be
high, as they are not tied to the Department. To provide greater continuity, the unit is trying to
convert some contract positions to Civil Service. For this approach to be successful, it is
important for DS to grade these positions at a high enough level to recruit qualified accountants.

Recommendation 27: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should complete the process of converting three positions in the Financial
Analysis and Forfeiture unit to Civil Service, assigning a series and grade commensurate with
the needed level of expertise. (Action: DS, in coordination with DGHR)

       The Visa and Passport Analysis unit supports CR agents primarily with database research
and analysis. The unit uses a wide array of government and commercial databases to research the
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

activities of targets and uncover relationships to other persons possibly involved in consular
fraud in order to develop additional leads and prove criminal activity. The unit also produces
intelligence reports on fraud trends at a broader, less case-specific level. Agents in CFI and the
field most value the unit’s assistance in specific cases and see less usefulness in broader fraud
trend analysis. They believe the Visa and Passport Analysis unit puts too much emphasis on the
latter. The branch manager understands the conflicting demands on the unit and on CIR in
general and has developed a plan to reorganize the branch to include separate units for case
support and criminal intelligence analysis.

Recommendation 28: The Bureau of Diplomatic Security should split the Visa and Passport
Analysis unit of the Criminal Intelligence and Research branch into two units to better meet the
need for case support. (Action: DS)

        The management and program analyst position oversees the DS evidence program and
provides training to all evidence custodians at headquarters and at DS field offices. The analyst
also leads efforts to develop and deploy new evidence management software. To meet the
demands of an expanding program, the analyst must travel more to conduct training; however,
the analyst has no backup or subordinate to assist with his growing portfolio or to provide
coverage during his absences.

Recommendation 29: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should add a second analyst position in the Property and Evidence Support
unit of the Criminal Intelligence and Research branch. (Action: DS, in coordination with
DGHR)

       At the time of the inspection, the CIR database manager position was vacant, with no
formal designation of a temporary replacement. Because the database manager is responsible for
providing database access to all DS employees, continuity in this position is of critical
importance.

Recommendation 30: The Bureau of Diplomatic Security should create a backup plan to
provide continuity for the Criminal Intelligence and Research branch database manager position
whenever the incumbent is absent. (Action: DS)

Criminal Investigative Liaison Branch

       This branch takes requests for assistance from other Federal, state, local, and foreign law
enforcement agencies and determines how to assist, if appropriate. Most of the requests come to
a DS online mailbox. The branch also puts DS agents in other agencies, primarily to field
requests for assistance. The current positions are with the International Criminal Police
Organization, the Department of Homeland Security/Immigrations and Customs Enforcement,
the U.S. Marshals Service, and a new position with the Federal Bureau of Investigation. CIL
agents direct the requests to DS elements as appropriate. All CIL agents are FS-2501 officers,
and overseas experience is a key factor in their work. The Department of Homeland
Security/Immigrations and Customs Enforcement reported satisfaction with having a DS agent
colocated at the National Tracing Center-Passenger. Other agencies are similarly pleased.


                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        CIL has an analyst located part time in CA’s Passport Office to evaluate hits in the
passport name check system in order to identify applicants with outstanding warrants and spot
possible criminal activities. This operation is expanding, and the volume of the work could
overwhelm a single analyst. Given the complex and time-sensitive nature of the work, it is
essential that staffing be sufficient to avoid mistakes that could have both national security and
criminal implications.

Recommendation 31: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should evaluate the workload of the Criminal Investigative Liaison branch
analyst position in the Passport Office and determine whether a second position is required.
(Action: DS, in coordination with CA)

        CIL operations provide a valuable link to other law enforcement entities and DS agents in
the field. CIL provides triage to requests for assistance and directs traffic so others can deal
efficiently with the requests.

        CA replaced front channel telegrams with the American Citizens Services Plus
application in the Consular Consolidated Database for embassies to report all arrests and deaths
of American citizens abroad. CIL does not have access to this application and, as a result, no
longer sees death and arrest notices. This information is valuable in identifying fugitives living
abroad who have outstanding domestic warrants and in closing warrants when the subject has
died. Without access to the American Citizens Services Plus application, CIL cannot monitor
these events adequately and provide timely support.

Recommendation 32: The Bureau of Consular Affairs, in coordination with the Bureau of
Diplomatic Security, should facilitate access for Criminal Investigative Liaison branch personnel
to the American Citizens Services Plus application. (Action: CA, in coordination with DS)

Special Projects Branch

        The SP branch leads the H&L employment visas fraud investigation program. The branch
has deployed 24 agents and investigative analysts to 18 field offices, where they further deploy
to Department of Homeland Security/Immigrations and Customs Enforcement Document and
Benefits Task Force offices. The special agent in charge at each field office directly supervises
the agents and analysts, with the SP branch chief, a GS-1811 position, adding oversight from
headquarters. The branch also manages the investigative unit at CA’s Kentucky Consular Center,
which primarily investigates H&L visa fraud. The SP branch has investigative analysts at
headquarters to support agents in the field, including assistant regional security officer-
investigators who are investigating H&L visa fraud.

         The working relationships at each field office among the agent, the special agent in
charge, and the Department of Homeland Security/Immigrations and Customs Enforcement Task
Force director determine the effectiveness of the program. The special agents in charge have
considerable autonomy. Some do not provide effective support to the SP branch agents assigned
to the task forces or require those agents to perform too many tasks assigned directly to the field
office. Some special agents in charge are not familiar with the SP branch program and provide
too little oversight, contributing to time and attendance abuses. Special agents in charge write

                                        20
                            SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      evaluations of SP branch Document and Benefits Fraud Task Force agents and analysts,
      sometimes disadvantaging promotion opportunities.

      Recommendation 33: The Bureau of Diplomatic Security should revise oversight procedures
      for Special Projects branch Document and Benefits Fraud Task Force agents in the field so that
      supervisors at headquarters rate and review the agents. (Action: DS)

              The above recommendation would require the SP branch chief to rate 34 employees,
      which is too many for effective management. In any case, the branch chief is already overtasked,
      managing agents in Washington and the field, as well as a vigorous training program that is
      popular, successful, and expanding. Supplementing the SP branch with two mid-level GS-1811
      positions would ease the current burden and provide additional continuity.

      Recommendation 34: The Bureau of Diplomatic Security, in coordination with the Bureau of
      Human Resources, should create two GS-1811 mid-level supervisory positions in the Special
      Projects branch. (Action: DS, in coordination with DGHR)

      Computer Investigations and Forensics Division

      Acknowledging Capabilities

              CIF, first established as a branch of CR in 2004, expanded to a division in 2009 with a
      mixture of 57 civil servants, FS-2501 agents, and private contractor personnel. Personnel
      numbers and logistics support are more than adequate. The training CIF provides is sufficient to
      keep contractor certifications current. CIF now provides a GS-1811 to each of the ICI field
      offices. Although CIF capabilities have expanded, its workload has not. One reason is that CIF is
      not located with its sister divisions in Department annex SA-20 and is therefore less visible.
      Expanding CIF’s customer base would allow the division to take full advantage of its
      capabilities.

                  Informal Recommendation 4: The Bureau of Diplomatic Security should provide
                  greater publicity within the bureau and among its regional security officers regarding
                  Computer Investigations and Forensics Division capabilities.
(b)(5)(b)(7)(E)




                                                 21
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b)(5)(b)(7)(E)



   Recommendation 35: (b)(5)(b)(7)(E)



   Converting the Contract Lab Manager Position to a Team Leader

          CIF is not making full use of its contractors as digital forensic analysts. The CIF Digital
   Forensics Program has, as its chief, a GS-1811 supervisor, assisted by an internally created
   contract lab manager position. The two duplicative positions oversee two Digital Evidence
   Analysis teams along with one Video/Audio team and one Hardware/Network Support team.
   This contractor supervisory position is not needed, as the contractor already provides a
   representative to service the personnel needs of its employees. The individual occupying the
   contract lab manager position would be better used if CIF were to form three Digital Evidence
   Analysis teams instead of two, making him a team leader. Three five-person groups would better
   align with the Department contract for the hiring of forensic analysts.

   Recommendation 36: The Bureau of Diplomatic Security should convert the contract lab
   manager position to a Digital Evidence Analysis team leader and create three Digital Evidence
   Analysis teams with five members each. (Action: DS)

   Integrating Administrative and Operational Components

          The administrative staff members of CIF feel that they are underappreciated. The
   configuration of CIF spaces, which separates the administrative and operational components,
   contributes to the problem. Integration of all personnel would promote mission unity.

            Informal Recommendation 5: The Bureau of Diplomatic Security should consider
            integrating the administrative and operational workforces of the Computer Investigations
            and Forensics Division in its upcoming renovation of the 12th floor of SA-14.

           The staffing configuration of CIF further promotes lack of cohesion, with the majority of
   contractors occupying positions in the Digital Forensics Program and full-time equivalents in
   CIF operations. Little professional or personal communication takes place between the two
   programs due to different mission requirements. At times, it appears that some CIF personnel in
   one program do not even recognize personnel in the other program as being in the same division.
   This lack of communication hinders mission effectiveness.

            Informal Recommendation 6: The Bureau of Diplomatic Security should hold periodic
            meetings for all Computer Investigations and Forensics Division personnel to build unit
            cohesion.

   Information Technology Systems

          DS has developed the computerized Investigative Management System (IMS) to track
   and document investigative cases worldwide. Nearly all ICI offices reportedly use the
                                           22
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

      unclassified IMS, but SID has judged that the sensitivity of some of its cases and the ability of
      locally employed staff at embassies to access unclassified systems require that SID use the
      classified IMS. Unfortunately, SID agents have found the classified IMS’s low bandwidth, small
      font size, instability, and lack of editing features unwieldy. As a result, SID has elected to use
      Microsoft Word templates, adapted to SID needs, for all casework even though the Word system
      lacks case-tracking capability. Agents use IMS only as a repository of closed case files, at the
      very end scanning sometimes voluminous paper files and uploading them into IMS. They
      sometimes do not bother to scan each document from particularly large files.

             SID has brought its IMS issues to the attention of the IMS Rapid Development team
      responsible for the program. Software updates and adjustments thus far have focused on the
      unclassified IMS program with its higher customer base, but classified system upgrades are
      being implemented in conjunction with the unclassified IMS program. In addition, DS is
      introducing SharePoint sites and applications to supplement IMS. SID plans to use the
      SharePoint option for managing cases as soon as the Bureau of Information Resource
      Management authorizes storage of personally identifiable information on SID-developed
      InfoPath forms. The goal is one information system that allows SID agents and supervisors to
      manage cases day to day and track the progress of those cases over time, all in a secure
      environment.

      Recommendation 37: The Bureau of Diplomatic Security should improve the performance of
      the classified Investigative Management System application and seek ways to adapt Microsoft
      Word-based template and SharePoint capabilities to better meet the information management
      needs of the Special Investigations Division. (Action: DS)
(b) (5)




      Recommendation 38: (b) (5)




                                             23
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of the Deputy Secretary should restructure the investigative
responsibilities currently assigned to the Special Investigations Division. The outcome should
include safeguards to prevent any Department of State or Diplomatic Security official from
improperly influencing the commencement, course, or outcome of any investigation. (Action:
S/ES)

Recommendation 2: (b) (5)



Recommendation 3: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should convert the Special Investigations Division chief position to Senior
Executive Service and have that position report directly to the Bureau of Diplomatic Security
Assistant Secretary. (Action: DS, in coordination with DGHR)

Recommendation 4: The Bureau of Diplomatic Security should revise its outdated manual of
standard investigative policies and procedures to make it a comprehensive, up-to-date document
with annexes applicable to particular offices, including the Special Investigations Division and
the Criminal Investigations Division’s Criminal Fraud Investigations branch. (Action: DS)

Recommendation 5: The Bureau of Diplomatic Security should include in the work
requirements statements of all Special Investigations Division supervisors a requirement to
conduct regular reviews of cases, including report of investigation preparation, with each
investigator. (Action: DS)

Recommendation 6: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should complete and sign a memorandum of understanding for the Consular
Integrity Division. (Action: DS, in coordination with CA)

Recommendation 7: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should establish model standard operating procedures for all posts with
assistant regional security officer-investigators. (Action: DS, in coordination with CA)

Recommendation 8: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should establish criteria for creating new assistant regional security officer-
investigator positions and for judging whether an existing position remains important to meet
program goals. (Action: DS, in coordination with CA)

Recommendation 9: The Bureau of Diplomatic Security should reassess the staffing and
reporting chain of the investigative units at Embassies Baghdad and Kabul and make the Special
Investigations Division responsible for overseeing all investigations that fall under the Special
Investigations Division mandate. (Action: DS)

Recommendation 10: (b)(5)(b)(7)(E)



                                       24
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Diplomatic Security, in coordination with the Office of
Legislative Affairs and the Office of the Legal Adviser, should seek congressional action that
provides the bureau with administrative subpoena authority. (Action: DS, in coordination with H
and L)

Recommendation 12: The Bureau of Diplomatic Security should commence peer reviews and
conduct them on a regular schedule for the Special Investigations, Criminal Investigations, and
Computer Investigations and Forensics Divisions’ investigative policies, procedures, and
activities. (Action: DS)

Recommendation 13: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should incorporate investigative skill requirements, technical aptitude, and
agents’ work histories into criteria for making FS-2501 agent assignments to the Office of
Investigations and Counterintelligence divisions’ investigative offices. (Action: DS, in
coordination with DGHR)

Recommendation 14: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should establish an investigator specialized career path for FS-2501 agents
(or a separate numerical designator for investigators) at least up to the rank of FS-01,
incorporating systematic and progressive training and assignments. (Action: DS, in coordination
with DGHR)

Recommendation 15: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should change the normal assignment length for FS-2501 special agents in
the Special Investigations, Criminal Investigations, and Computer Investigations and Forensics
Divisions to 3 years, recognizing specialized skills and unusual continuity requirements as
justification. (Action: DS, in coordination with DGHR)

Recommendation 16: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should increase the percentage of GS-1811 investigators in the Special
Investigations Division and the Criminal Investigations Division to include at least two GS-
1811s in each investigative work unit and at least one GS-1811 supervisor in each division.
(Action: DS, in coordination with DGHR)

Recommendation 17: The Bureau of Diplomatic Security should designate at least one unit
chief position in the Criminal Fraud Investigations branch as Civil Service. (Action: DS)

Recommendation 18: The Bureau of Diplomatic Security should develop a training plan that
provides all agents in the Special Investigations Division with training and experience in the
various types of investigative skills. (Action: DS)

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should implement an orientation program that requires each new investigator
in the Special Investigations Division to attend at least one full day of consultations with
adjudicators in the Office of Conduct, Suitability, and Discipline and that includes reciprocal
orientation days for adjudicators with agents in the Special Investigations Division. (Action: DS,
in coordination with DGHR)


                                       25
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 20: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should rewrite the position descriptions of the support staff in the Special
Investigations Division to include the variety of routine office management responsibilities and
stop assigning noninvestigative duties to agents. (Action: DS, in coordination with DGHR)

Recommendation 21: The Bureau of Diplomatic Security should split the Criminal Fraud
Investigations branch responsibilities from the Criminal Investigations Division to create a new
division. (Action: DS)

Recommendation 22: The Bureau of Diplomatic Security should restrict access to the
Criminal Fraud Investigations branch workspace by reconfiguring the SA-20 12th floor space or
relocating the branch. (Action: DS)

Recommendation 23: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should assign only agents with overseas experience to be desk officers in the
Overseas Criminal Investigations branch. (Action: DS, in coordination with DGHR)

Recommendation 24: The Bureau of Diplomatic Security should establish an accurate
position description and work requirements for each position in the Overseas Criminal
Investigations branch. (Action: DS)

Recommendation 25: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should request an additional desk officer position for the Overseas Criminal
Investigations branch. (Action: DS, in coordination with DGHR)

Recommendation 26: The Bureau of Consular Affairs should grant Foreign Service national
investigators working for assistant regional security officer-investigators the same Consular
Consolidated Database access it grants to consular Foreign Service national investigators.
(Action: CA)

Recommendation 27: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should complete the process of converting three positions in the Financial
Analysis and Forfeiture unit to Civil Service, assigning a series and grade commensurate with
the needed level of expertise. (Action: DS, in coordination with DGHR)

Recommendation 28: The Bureau of Diplomatic Security should split the Visa and Passport
Analysis unit of the Criminal Intelligence and Research branch into two units to better meet the
need for case support. (Action: DS)

Recommendation 29: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should add a second analyst position in the Property and Evidence Support
unit of the Criminal Intelligence and Research branch. (Action: DS, in coordination with
DGHR)

Recommendation 30: The Bureau of Diplomatic Security should create a backup plan to
provide continuity for the Criminal Intelligence and Research branch database manager position
whenever the incumbent is absent. (Action: DS)



                                       26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 31: The Bureau of Diplomatic Security, in coordination with the Bureau of
Consular Affairs, should evaluate the workload of the Criminal Investigative Liaison branch
analyst position in the Passport Office and determine whether a second position is required.
(Action: DS, in coordination with CA)

Recommendation 32: The Bureau of Consular Affairs, in coordination with the Bureau of
Diplomatic Security, should facilitate access for Criminal Investigative Liaison branch personnel
to the American Citizens Services Plus application. (Action: CA, in coordination with DS)

Recommendation 33: The Bureau of Diplomatic Security should revise oversight procedures
for Special Projects branch Document and Benefits Fraud Task Force agents in the field so that
supervisors at headquarters rate and review the agents. (Action: DS)

Recommendation 34: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should create two GS-1811 mid-level supervisory positions in the Special
Projects branch. (Action: DS, in coordination with DGHR)

Recommendation 35: (b)(5)(b)(7)(E)



Recommendation 36: The Bureau of Diplomatic Security should convert the contract lab
manager position to a Digital Evidence Analysis team leader and create three Digital Evidence
Analysis teams with five members each. (Action: DS)

Recommendation 37: The Bureau of Diplomatic Security should improve the performance of
the classified Investigative Management System application and seek ways to adapt Microsoft
Word-based template and SharePoint capabilities to better meet the information management
needs of the Special Investigations Division. (Action: DS)

Recommendation 38: (b) (5)




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Diplomatic Security should increase liaison
efforts between Special Investigations Division supervisors and all U.S. attorney offices in the
Washington, DC, region.

Informal Recommendation 2: The Bureau of Diplomatic Security should formulate and
disseminate a policy on teleworking for the Criminal Investigations Division.

Informal Recommendation 3: The Bureau of Diplomatic Security should designate and train
an employee to serve as regular backup for the operations assistant position in the Criminal
Fraud Investigations branch.

Informal Recommendation 4: The Bureau of Diplomatic Security should provide greater
publicity within the bureau and among its regional security officers regarding Computer
Investigations and Forensics Division capabilities.

Informal Recommendation 5: The Bureau of Diplomatic Security should consider integrating
the administrative and operational workforces of the Computer Investigations and Forensics
Division in its upcoming renovation of the 12th floor of SA-14.

Informal Recommendation 6: The Bureau of Diplomatic Security should hold periodic
meetings for all Computer Investigations and Forensics Division personnel to build unit
cohesion.




                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                  Name      Arrival Date

 Assistant Secretary, DS                                    Eric Boswell          07/08

 Principal Deputy Assistant Secretary and Director,   Scott P. Bultrowicz         11/11
 Diplomatic Security Service

 Assistant Director, DS/Domestic Operations              Barry M. Moore           07/10

 Director, DS/ICI                                     Kimber E. Davidson          08/12

 Division Chiefs

    Special Investigations Division                         Paul Houston          08/12

    Criminal Investigations Division                     David C. Zebley          09/12

    Computer Investigations and Forensics Division          David Trosch          06/05




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


Abbreviations
CA              Bureau of Consular Affairs

CFI             Criminal Fraud Investigations branch

CID             Consular Integrity Division

CIF             Computer Investigations and Forensics division

CIL             Criminal Investigative Liaison branch

CIR             Criminal Intelligence and Research branch

CR              Criminal Investigations division

Department      U.S. Department of State

DS              Bureau of Diplomatic Security

FS              Foreign Service

GS              General Schedule

H&L             Temporary workers and trainees visa and intracompany transferee visa

ICI             Office of Investigations and Counterintelligence

IMS             Investigative Management System

OCI             Overseas Criminal Investigations branch

ROI             Report of investigation

SID             Special Investigations Division

SP              Special Projects branch




                              30
                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix: Reporting Chain of Command for the Bureau of
Diplomatic Security, Directorate of Domestic Operations,
Office of Investigations and Counterintelligence




In the above chart, the DS Assistant Secretary oversees the Principal Deputy Assistant Secretary and
Director (DS/DSS), the Assistant Director (DS/DO), and the Office Director (DS/DO/ICI). The Office
Director oversees the Field Office Director, which includes eight field offices, and four divisions. The
Special Investigations Division (SID) includes two General Investigations Units and the Violent Crimes
Unit. The Criminal Investigations Division (CR) includes Consular Integrity (CID), Document Benefit
Fraud Task Force (DBFTF) and Program and Domestic H&L, Overseas Criminal Investigations (OCI),
Criminal Investigative Liaison (CIL), Criminal Fraud Investigations (CFI), and Criminal Intelligence and
Research (CIR). Criminal Intelligence and Research (CIR) overseas the Management and Program
Analyst (Evidence), the Database Manager (now vacant), the Financial Analysis and Forfeiture Unit
(FAFU), and the Visa and Passport Analysis Unit (VPAU). The Computer Investigations and Forensics
Division (CIF) includes the Digital and Forensics Program and CIF Operations. The Counterintelligence
Division (CI) includes the Counterintelligence and Counterterrorism Vetting Unit (CCV).
                                        31
                            SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
